    DEFENSE BASE REALIGNMENT AND CLOSURE BUDGET
       DATA FOR MODERNIZATION OF BUILDING 196,
       WASHINGTON NAVY YARD, WASHINGTON, D.C.



Report No. 98-199                        September 11, 1998




              Office of the Inspector General
                  Department of Defense
     Additional    Copies

     To obtain additional copies of this audit report, contact the Secondary Reports
     Distribution Unit of the Analysis, Planning, and Technical Support Directorate at (703)
     604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector General,
     DOD Home Page at: WWW.DODIG.OSD.MIL.

     Suggestions   for Audits

     To suggest ideas for or to request future audits, contact the Planning and Coordination
     Branch of the Analysis, Planning, and Technical Support Directorate at (703) 604-8908
     (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests can also be mailed to:

                            OAIG-AUD (ATTN: APTS Audit Suggestions)
                            Inspector General, Department of Defense
                            400 Army Navy Drive (Room 801)
                            Arlington, Virginia 22202-2884

     Defense Hotline

     To report fraud, waste, or abuse, contact the Defense Hotline by calling
     (800) 424-9098; by sending an electronic message to Hotline@DODIG.OSD.MIL;          or
     by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.      The
     identity of each writer and caller is fully protected.
I-




Acronyms

BRAC                        Base Realignment and Closure
GAO                         General Accounting Oflice
GPRA                        Government Performance Results Act
MILCON                      Military Construction
                                     INSPECTOR     GENERAL
                                    DEPARTMENT    OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                    ARLINGTON. VIRGINIA 22202




                                                                      September   11, 1998

MEMORANDUM         FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)
                       ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                         MANAGEMENT AND COMPTROLLER)

SUBJECT:    Audit Report on Defense Base Realignment and Closure Budget Data for
            Modernization of Building 196, Washington Navy Yard, Washington, D.C.
            (Report No. 98- 199)


         We are providing this audit report for review and comments. This report is one in
a series about FY 1999 Defense base realignment and closure military construction costs.

         Comments received from the Under Secretary of Defense (Comptroller) on a draft
of this report conformed to the requirements of DOD Directive 7650.3. The directive
requires that all recommendations be resolved promptly. Because the Navy did not
respond to the draft report, we request that the Navy provide comments on the final report
by October 13, 1998.

         We appreciate the courtesies extended to the audit staff. Questions on the
audit should be directed to Mr. Wayne K. Million, at (703) 604-93 12 (DSN 664-93 12)
(wmillion@dodig.osdmil)      or Ms. Bobbie Sau Wan, at (703) 604-9259 (DSN 664-9259)
(bwan@dodig.osd.mil).      See Appendix D for the report distribution. Audit team members
are listed inside the back cover.




                                          Robert J. Lieberman
                                       Assistant Inspector General
                                               for Auditing
                          Office of the Inspector General, DOD
Project   No. 98-199                                                     September    11,1998
   (Project No. 8CG-5012.01)

           Defense Base Realignment and Closure Bud et Data for
           Modernization of Building 196, Washington k avy Yard,
                              Washington, D.C.

                                  Executive Summary

Introduction.    This report is one in a series about FY 1999 Defense base realignment and
closure military construction costs. Public Law 102- 190, “National Defense Authorization
Act for Fiscal Years 1992 and 1993,” December 5, 1991, directs the Secretary of Defense
to ensure that the amount of the authorization that DOD requested for each Defense base
realignment and closure military construction project does not exceed the original
estimated cost provided to the Commission on Defense Base Closure and Realignment
(the Commission). If the requested budget amounts exceed the original project cost
estimates provided to the Commission, the Secretary of Defense is required to explain to
Congress the reasons for the differences. The Of&e of the Inspector General, DOD, is
required to review each Defense base realignment and closure military construction
project for which a significant difference exists from the original cost estimate and to
provide the results of the review to the congressional Defense committees.

Audit Objectives.     The overall audit objective was to determine the accuracy of Defense
base realignment and closure military construction budget data. This report provides the
results of the audit of one project, valued at $7.4 million, related to the relocation of Naval
Sea Systems Command to the Washington Navy Yard, Washington, D.C. A review of the
management control program, as it applies to the overall audit objective, is reported in
Inspector General, DOD, Report No. 98-175, “Summary Report on the Audit of Defense
Base Realignment and Closure Budget Data for FYs 1997 and 1998,” July 2, 1998.
Therefore, an assessment of the adequacy of the management control program was not
repeated for this audit.

Audit Results. The Navy did not adequately support requirements for project        P-04 1U,
“Building Modernization,” valued at $7.4 million, resulting from the relocation    of Naval
Sea Systems Command finctions from Arlington, Virginia, to the Washington          Navy Yard.
As a result, the requirements and cost estimate of $7.4 million for the proposed    project
need fk-ther analysis before the project is funded.

Summary of Recommendations.           We recommend that the Under Secretary of Defense
(Comptroller) place project P-041U on administrative withhold pending the Navy’s
completion of a valid and fklly supported economic analysis. We fkther recommend that
the Commander, Naval Facilities Engineering Command, conduct a valid and fblly
supported economic analysis to determine whether renovation of Washington Navy Yard
Building 196 is the optimal alternative.

Management      Comments.     The Under Secretary of Defense (Comptroller) concurred and
stated that finds for the project will be placed on administrative withhold pending audit
resolution. We received no comments from the Navy on the draft report issued July 2,
1998. We request that the Navy comment on this report by October 13, 1998.
Table of Contents

Executive Summary                                              i


Introduction
      Background                                              1
      Objectives                                              1

Finding
      Renovation   of Building 196                            2

Appendixes
      A. Audit Process
             Scope
             Methodology
             Management Control Program
      B. Background of Defense Base Realignment and Closure
      C. Invalid or Partially Valid Projects
      D. Report Distribution

Management Comments
      Office of the Under Secretary of Defense Comments       11
Background
     The Office of the Inspector General, DOD is performing audits of the Defense
     realignment and closure (BRAC) process. This audit is one in a series on
     FY 1999 BRAC military construction (MILCON) costs. For additional
     information on the audit process, see Appendix A. For background information     on
     the BRAC process, see Appendix B.



Objectives

     The overall audit objective was to determine the accuracy of BRAC MILCON
     budget data. The specific objectives were to determine whether the proposed
     project was a valid BRAC requirement, whether the decision for MILCON was
     supported with required documentation including an economic analysis, and
     whether the economic analysis considered existing facilities. A review of the
     management control program, as it applies to the overall audit objective is
     discussed in DOD Inspector General Report No. 98-175, “Summary Report on the
     Audit of Defense Base Realignment and Closure Budget Data for FYs 1997 and
     1998,” July 2, 1998. Therefore, an assessment of the adequacy of the management
     control program will not be repeated for this audit.

     This report provides the results of the audit of BRAC MILCON project P-04 1U,
     “Building Modernization,” valued at $7.4 million, resulting from the relocation of
     Naval Sea Systems Command functions from Arlington, Virginia, to the
     Washington Navy Yard, Washington, D.C.
           Renovation of Building 196
           The Navy did not adequately support requirements for project P-04 1U,
           “Building Modernization,” valued at $7.4 million, resulting from the
           relocation of Naval Sea Systems Command functions from Arlington,
           Virginia, to the Washington Navy Yard. This condition occurred because
           the Navy failed to perform an adequate economic analysis to determine
           whether the planned renovation of Building 196 is the optimal choice of
           alternatives to accommodate the displaced Naval Computer and
           Telecommunications    Station personnel. As a result, the project
           requirements and cost estimate of $7.4 million for the proposed project
           need further analysis before the project is funded.



Project Background
    The 1995 Commission on Defense Base Closure and Realignment recommended
    relocating Naval Sea Systems Command from Arlington, Virginia, to the
    Washington Navy Yard, Washington, D.C. As part of this relocation, the Navy
    decided to convert Washington Navy Yard Building 143, which currently
    accommodates Naval Computer and Telecommunications       Station personnel and
    equipment, into a parking garage for Naval Sea Systems Command personnel.
    Project P-041U is a planned renovation and modernization of Washington Navy
    Yard Building 196 to accommodate the displaced Naval Computer and
    Telecommunications    Station personnel.



Developing and Documenting an Economic Analysis

    The Navy could not produce documentation to support that economic analysis for
    project P-04 1U had been performed. DOD Financial Management Regulation,
    volume 2B, section 0705, “Base Realignment and Closure Appropriation
    Submission Formats,” states, “As a minimum, all renovation, upgrade, and
    replacement projects must be supported by an economic analysis.” An economic
    analysis is to include a statement of the proposed task, assumptions made, a
    determination of the feasibility of the alternative approaches, and a cost/benefit
    analysis for each feasible alternative approach.

    Navy personnel stated that an economic analysis had been performed, but could
    not produce any documentation to support the analysis. However, during the
    audit, Navy representatives prepared a new economic analysis, which compared
    the combined current and future costs for renovating Building 196 as opposed to
    construction of new facilities.

    The newly prepared economic analysis that the Navy provided failed to adequately
    support the Navy decision to renovate Building 196 as the optimal alternative for
    accommodating the Naval Computer and Telecommunications        Station personnel,
    rather than construct new facilities.

                                         2
    Economic Analysis Methodology. The analysis compared the estimated cost for
    renovation of Building 196, representing the initial renovation costs plus the
    present value of estimated utilities and other recurring costs for 25 years, with the
    estimated cost for construction of a new facility, taking into account the present
    value of its expected future cost. The economic analysis calculated the total cost
    (net present value) for renovation of Building 196 over 25 years to be
    $20.5 million, and the total comparable cost for new construction to be
    $22.6 million.

    Economic Analysis Assumptions. The economic analysis was flawed because it
    incorporated several assumptions without adequately supporting the
    reasonableness of those assumptions. For example, it was assumed that new
    construction could save 33 percent for maintenance costs and 25 percent for
    utilities costs. However, no support was provided to establish the reasonableness
    of those assumptions. Because projected maintenance and utilities costs constitute
    a significant portion of the economic analysis, even a small deviation from the
    assumed maintenance and utility costs could result in an entirely different
    economic analysis conclusion, This is especially true considering the fact that the
    projected total cost for renovation of Building 196 ($20.5 million) is very close to
    the projected total cost for new construction ($22.6 million). While the economic
    analysis favors the decision to renovate Building 196, the analysis is incomplete
    because there is no documentation supporting major assumptions made within the
    analysis.



Recommendations, Management Comments, and Audit
Response

    1. We recommend that the Under Secretary of Defense (Comptroller) place
    $7.4 million for project P-041U on administrative withhold pending the
    Navy’s completion of a valid and fully supported economic analysis that
    supports completion of the project.

    Under Secretary of Defense (Comptroller). The Under Secretary of Defense
    (Comptroller) stated that funds for the project will be placed on administrative
    withhold pending audit resolution.

    2. We recommend       that the Commander, Naval Facilities Engineering
    Command, conduct       a valid and fully supported economic analysis to
    determine whether     renovation of Washington Navy Yard Building 196, is the
    optimal alternative   to accommodate the Naval Computer and
    Telecommunications      Station personnel relocated from the Building 143.

    Management Comments Required, The Navy did not respond to a draft of this
    report in time for comments to be incorporated into the final report. If comments
    are received, we will consider them as comments on the final report.
Appendix A.               Audit Process


Scope

        Work Performed and Limitations to Overall Audit Scope. We examined the
        FY 1999 BRAC MILCON budget request and supporting documentation for
        space requirements for the relocation of Naval Sea Systems Command from
        Arlington, Virginia, to the Washington Navy Yard, Washington, D.C. We
        examined the FY 1999 BRAC MlLCON budget request, economic analysis, and
        supporting documentation for project P-04 1U, “Building Modernization,” valued
        at $7.4 million.

        DOD-wide Corporate Level Government Performance And Results Act
        (GPRA) Goals. In response to the GPRq the Department of Defense has
        established 6 DOD-wide corporate level performance objectives and 14 goals for
        meeting these objectives. This report pertains to achievement of the following
        objective and goal.

                Objective: Fundamentally   reengineer the Department   and achieve a 2 1st
        century infrastructure.

               Goal: Reduce costs while maintaining required military capabilities across
        all DOD mission areas. (DOD-~)

        General Accounting OffIce High Risk Area. The General Accounting office
        (GAO) has identified several high risk areas in the DOD. This report provides
        coverage of the Defense Infrastructure high risk area.



Methodology

        Audit Type, Dates, and Standards. This economy and efficiency audit was
        performed from March 1998 through May 1998 in accordance with auditing
        standards issued by the Comptroller General of the United States as implemented
        by the Inspector General, DOD. The audit did not rely on computer-processed
        data or statistical sampling procedures.

        Contacts During the Audit. We visited or contacted individuals and
        organizations within DOD. Further details are available on request.




                                             4
Management Control Program

    Our review of management controls over BILK MILCON projects is discussed in
    DOD Inspector General Report No. 98-175, “Report on the Audit of Defense Base
    Realignment and Closure Budget Data for FYs 1997 and 1998,” July 2, 1998.



Prior Coverage
    Four summary reports have been issued for the audits of BRAC budget data for
    FYs 1992 through 1998. Details on those reports, and the numerous audit reports
    that they summarize, are available upon request. Also see the IG, DOD Home
    Page at: WWW.DODIG.OSD.MIL.
Appendix B.           Background of Defense Base
                      Realignment and CIosure

   Commission on Defense Base Closure and Realignment. On May 3, 1988, the
   Secretary of Defense chartered the Commission on Defense Base Closure and
   Realignment (the Commission) to recommend military installations for realignment
   and closure. Congress passed Public Law 100-526, “Defense Authorization
   Amendments and Base Closure and Realignment Act,” October 24, 1988, which
   enacted the Commission’s recommendations.        The law also established the Defense
   Base Closure Account to fi_mdany necessary facility renovation or MILCON
   projects associated with BRAC. Public Law 101-5 10, “Defense Base Closure and
   Realignment Act of 1990,” November 5, 1990, reestablished the Commission. The
   law also chartered the Commission to meet during calendar years 1991, 1993, and
   1995 to provide a fair process that will result in a timely closure and realignment of
   military installations inside the United States. In addition, the law stipulates that
   realignment and closure actions must be completed within 6 years after the
   President transmits the recommendations to Congress.

   Required Defense Reviews of BRAC Estimates. Public Law 102- 190,
   “National Defense Authorization Act for Fiscal Years 1992 and 1993,”
   December 5, 199 1, states that the Secretary of Defense shall ensure that the
   authorization amount that DOD requested for each MILCON project associated
   with BRAC actions does not exceed the original estimated cost provided to the
   Commission. Public Law 102-190 also states that the Inspector General, DOD
   must evaluate significant increases in BRAC MILCON project costs over the
   estimated costs provided to the Commission, and the Secretary of Defense shall
   send a report to the congressional Defense committees.

   Military Department BRAC Cost-Estimating Process. To develop cost
   estimates for the Commission, the Military Departments used the Cost of Base
   Realignment Actions computer model. The Cost of Base Realignment Actions
   computer model uses standard cost factors to convert the suggested BRAC
   options into dollar values to provide a way to compare the different options. After
   the President and Congress approve the BRAC actions, DOD realigning activity
   offtcials prepare a DD Form 1391, “FY 1999 Military Construction Project Data,”
   for each individual MILCON project required to accomplish the realigning actions.
   The Cost of Base Realignment Actions computer model provides cost estimates as
   a realignment and closure package for a particular realigning or closing base. The
   DD Form 139 1 provides specific cost estimates for an individual BRAC MILCON
   project.

   Limitations and Expansion to Overall Audit Scope. Because the Cost of Base
   Realignment Actions computer model develops cost estimates as a BRAC package
   and not for individual BRAC MILCON projects, we were unable to determine the
   amount of cost increases for each individual BRAC MILCON project.
   Additionally, because of prior audit efforts that determined potential problems with
   all BRAC MILCON projects, our audit objectives included all large BRAC
   MILCON projects.



                                         6
Overall Audit Selection Process. We reviewed the FY 1999 BRAC MILCON
$264.1 million budget submitted by the Military Departments and the Defense
Logistics Agency. We excluded projects that were previously reviewed by DOD
audit organizations. We grouped the remaining BRAC MILCON projects by
location and selected all projects in the budget. We also reviewed those BRAC
MILCON projects that were not included in the previous budget submissions, but
were added as part of the FY 1999 BRAC MILCON budget package.
Appendix C.                 Invalid or Partially Valid Projects

                  Table C-l.    Causes of Invalid or Partially Valid Project
                             Project               Causes of                        Causes of
                                                Invalid Project             Partially Valid Project
   Project Location         Number        Overstated    Unsupported      Overstated       Unsupported
Washington Navy Yard     P-04 1u                              X



                Table C-2. Recommended          Changes in Project Estimates

                                              Amount of          Recommended Amount of Change
   Project Location         Project        Estimate on DD           Invalid      Partially Valid
                            Number           Form 1391             Projects          Projects
                                             (thousands)         (thousands)      (thousands)
Washington Navy Yard     P-041u                 $7,350                $7,350

 Total                                          $7,350                $7,350
   Total Invalid and Partially Valid Projects                                   $7,350
Appendix D.               Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Offrcer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)
Deputy Under Secretary of Defense (Industrial Affairs and Installations)
   Principal Assistant Deputy Under Secretary of Defense (Industrial Affairs and
       Installations)
Director, Defense Logistics Studies Information Exchange


Department of the Army
Auditor General, Department   of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management   and Comptroller)
Commander, Naval Facilities Engineering Command
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management   and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency
Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International   Affairs Division,
   General Accounting Office


Congressional Committees and Subcommittees
Chairman and ranking minority member of each of the following congressional       committees
  and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Subcommittee on Military Construction, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on Military Construction, Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International AKairs, and Criminal Justice,
     Committee on Government Reform and Oversight
  House Committee on National Security




                                             10
Office of the Under Secretary of Defense
Comments


                          OFFICE OF THE UNDER SECRETARY OF DEFENSE
                                           1100 DEFENSE PENTAGON
                                          WASHINGTON, DC 2020 1- 11GO




    couclcoLull
  (ProgramlBudget)                                                                   September 3,1997



          MEMORANDUMFOR ASSISTANT INSPECTOR GENERAL PGR AUDITING, DOD IG

          SUBJECT: DoD IG Draft Audit Report Defense Base Realignment and Closure Budget Data for
                   Modernization of Buildiig I%, Washington Navy Yard, Washington, DC
                   (Project No. gCG-5012.01)


                    This responds to your July 2,199g memorandum requesting our comments on the subject
          report.

                  The audit recommends that tbe USD (Comptroller) place $7.4 million on administrative
          withhold for the Building Modernization project at the Washington Navy Yard associated with the
          relocation of the Naval Sea Systems Command from Arlington, Virginia. The audit contends that
          the project is unsuppoaed because the Navy did not perform an adequate economic analysis to
          determine whether the planned renovation of Building 1% is the optimal choice of alternatives to
          accommodate the displaced Naval Computer and Telecommunications Station personnel.

                 Since we understand the issue is in dispute, we will place the finrds for the project on
          administrative withhold pending audit resolution. If it is determined that the audit finding is
          indeed accurate, we will realign any saving identified to other Base Realignment and Closure
          requirements, as appropriate.




                                                        Director for Construction




                                                          11
Audit Team Members

 The Contract Management Directorate, Offke of the Assistant Inspector
 General for Auditing, DOD, produced this report.
    Paul J. Granetto
    Wayne K. Million
    Bobbie Sau Wan
    Marc A. Pederson
    Stevenson A. Bolden
